            U.S. Department of
                                                  Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   INFORMATION: Audit Announcement -                          Date:    February 7, 2007
           Department of Transportation Fiscal Years 2007
           and 2006 Financial Statements
           Project Number: 07F3004F000
  From:    Rebecca C. Leng                                         Reply to
                                                                   Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    See Distribution

           The Office of Inspector General (OIG) is initiating its audit of the Department of
           Transportation (DOT) Fiscal Years (FY) 2007 and 2006 Financial Statements. The
           audit will be conducted in accordance with Generally Accepted Government
           Auditing Standards and Office of Management and Budget Bulletin 06-03, “Audit
           Requirements for Federal Financial Statements.”

           The Department received a qualified opinion on the FY 2006 consolidated financial
           statements because the Federal Aviation Administration (FAA) could not provide
           adequate support to verify the reliability of the reported Construction in Progress
           balance, totaling $4.7 billion as of September 30, 2006. FAA is making a
           concerted effort to correct this deficiency and make appropriate adjustments. If the
           Department needs to restate the FY 2006 balance in this year's comparative
           financial statements, OIG and its contract auditors will need to audit the revised
           balances.

           In addition, component statements for FAA, the Highway Trust Fund, and the
           St. Lawrence Seaway Development Corporation will be audited by independent
           external auditors, subject to OIG oversight. All other work will be performed by
           OIG staff.

           The audit opinions on the DOT FYs 2007 and 2006 Consolidated Financial
           Statements are due to the Office of Management and Budget by November 15,
           2007. The audit will be conducted at DOT Headquarters in Washington, D.C. and
           selected field offices. We will contact your audit liaison to establish an entrance
                                                                                   2


conference in order to discuss the audit. The Program Director for this audit is Earl
Hedges; the Project Managers are George Banks, Mark Rielly, and Mary Smothers.
If you have any questions or need additional information, please call me at (202)
366-1496 or Earl Hedges, at (410) 962-3612.


Distribution:

Chief Financial Officer, Department of Transportation
Chief Financial Officer, Federal Aviation Administration
Chief Financial Officer, Federal Highway Administration
Chief Financial Officer, Federal Railroad Administration
Chief Financial Officer, National Highway Traffic Safety Administration
Chief Financial Officer, Federal Transit Administration
Chief Financial Officer, Federal Motor Carrier Safety Administration
Chief Financial Officer, Maritime Administration
Chief Financial Officer, Research and Innovative Technology Administration
Chief Financial Officer, Office of Inspector General
Chief Financial Officer, Pipeline and Hazardous Materials Safety Administration
Chief Financial Officer, Surface Transportation Board
Director of Finance and Administration, St. Lawrence Seaway Development
 Corporation

cc: Martin Gertel, M-1
